                                  INSPECTION




 UNITED MINE WORKERS OF AMERICA
 HEALTH AND RETIREMENT FUNDS
 (REVISED)




Report No.: ER-IS-OSM-0007-2013   December 2013
                  OFFICE OF
                  INSPECTOR GENERAL
                  U.S.DEPARTMENT OF THE INTERIOR

                                                                                                      DEC 1 3 2013
Memorandum

To:                 Joseph Pizarchik
                    Director, Office of Surface Mining Reclamation and Enforcement

From:
                                                       for Audits, Inspections, and Evaluations

Subject:            Inspection Report- United Mine Workers of America Health and Retirement
                    Funds (Revised)
                    Report No. ER-IS-OSM-0007-2013 .

       We recently completed an inspection at the request ofthe Office of Surface Mining
Reclamation and Enforcement (OSM) into the United Mine Workers of America Health and
Retirement Funds (UMWAF). We reviewed concerns expressed by OSM about increasing
administrative costs associated with UMWAF, as well as OSM's authority to provide
programmatic oversight of the trusts related to UMWAF.

       We make one recommendation to assist OSM with increasing its oversight authority of
administrative costs associated with UMWAF.

Background

       As offiscal year 2012, UMWAF provided healthcare to 31,871 retired union coal-mine
workers and their dependents for a total of$392,263,098. There are three primary trusts that
provide coverage for health benefits: the Combined Benefit Fund (CBF), the 1992 Benefit Plan
(92BP), and the 1993 Benefit Plan (93BP). 1

        A memorandum of understanding (MOU) currently exists between UMW AF and OSM
outlining the responsibilities of both parties under the Surface Mining Control and Reclamation
Act (SMCRA). SMCRA, codified in 30 U.S.C. §§ 1201-1328, is the primary Federal law that
regulates the environmental effects of coal mining in the United States. SMCRA created the
Abandoned Mine Lands (AML) fund, managed by OSM, to pay for the cleanup of mine lands.
Amendments passed in 1992 and 2006 require that interest from the AML fund be transferred to
the three trusts to support healthcare benefits. Deposits to the AML fund are derived from a tax
levied on mining operators per tonnage of coal harvested.



1 The Coal Industry Retiree Health Benefit Act of 1992 (Coal Act) established CBF and 92BP to provide healthcare benefits to

qualified retired union miners, their dependents, and their surviving spouses. Collective bargaining with the Bituminous Coal
Operators ' Association created 93BP outside the context of the Coal Act. Unlike CBF and 92BP, which have a statutory basis,
the outcome of the collective bargaining process will continue to determine the existence of93BP.



                                Office of Audits, Inspections, and Evaluations I Wash ington, DC
        At the beginning of each fiscal year, UMWAF submits a funding request that details
projected costs to OSM. OSM then transfers interest earned from the AML fund to support
UMWAF; adjustments are made at the end of the year based on actual expenditures. In the event
that interest generated does not cover expenses, the three trusts are entitled to payments from the
U.S. Treasury, subject to a $490 million cap on all combined annual transfers from the Treasury
and the AML fund. Transfers under the current law began in 1992 to CBF and in 2008 to 92BP
and 93BP. These payments cover the costs of providing healthcare benefits to unassigned
beneficiaries, or miners who retired from a coal operator that is no longer in business.

        The Office of Inspector General (OIG) previously issued an audit report 2 and an advisory
      3
letter on the CBF in February 2001. The audit report focused on the accuracy of the amounts
transferred and the amounts paid for the healthcare of unassigned beneficiaries. The report
concluded that both dollar amounts were accurate. The advisory letter focused on the long-term
sustainability of the CBF and concluded that without additional funding the CBF may not be able
to meet its future obligations

Findings

Administrative Costs

       UMWAF actuaries project all costs associated with the funding. These cost projections
provided to OSM are determined in part based on data received from the Social Security
Administration as prescribed by the Coal Act. UMWAF uses an independent auditing firm to
review the administrative costs.

        Although OSM expressed concerns about increasing administrative costs associated with
UMWAF, our review of the independent auditor’s financial reports and of the budget
information provided by OSM, which included administrative costs for all three trust funds,
indicated that administrative costs are at or below the 12 percent observed in private
industry4 (see Figure 1).




2
  “Funds Transferred to the United Mine Workers of America Combined Benefit Fund by the Office of Surface Mining
Reclamation and Enforcement.” Report No. 01-I-187, February 2001.
3
  “Advisory Letter on Selected Aspects of the Operation of the United Mine Workers of America Combined Benefit Plan,”
No. 01-i-188, February 2001.
4
  Lemieux (2005): “Perspective: Administrative Costs of Private Health Insurance Plans.” Center for Policy and Research,
American Health Insurance Plans. (2005).


                                                              2
                    UMWAF Administrative Costs Compared to the Industry Average

                    18

                    16

                    14
                                                                                          Industry
                    12                                                                    Average

Percentage          10                                                                      92 Plan
                                                                                            93 Plan
                      8
                                                                                            CBF Plan
                      6

                      4

                      2

                      0
                                 2010                 2011                  2012   2013


Figure 1: UMWAF administrative costs by percentage for the three healthcare trusts compared to the
industry average.

       In addition, 26 U.S.C § 9705 (b)(2) 5 states that any amount transferred from the AML
fund for any fiscal year “shall be used to pay benefits and administrative costs.” No dollar
amount or percentage ceiling is associated with administrative costs.

    Based on the data reviewed, we conclude that the administrative costs associated with
UMWAF appear reasonable.

Limited Programmatic Overview

        SMCRA does not expressly require OSM to oversee management of UMWAF, including
how administrative costs are spent. The law requires that OSM make payments to the three
health trusts. OSM manages the AML fund and facilitates transfers of interest on the AML fund
to CBF, 92BP, and 93BP. OSM serves primarily as a pass through for funds transferred to the
trusts.

         Although SMCRA does not have specific provisions for oversight authority, the current
MOU between OSM and UMWAF provides OSM some monitoring rights. The current MOU
states: “The Federal Government reserves the right to audit any and all records involving the
receipt and use of Federal funds and the computation of subsequent adjustments.” The MOU
allows OSM to receive and review audited annual financial statements and monthly unaudited
statements, both provided by UMWAF. In addition, the MOU names OIG as the cognizant
auditing agency, granting OIG the authority to review any UMWAF records involved in the
5
    26 U.S.C. §§ 9702 -9708 references the Coal Industry Health Benefits.


                                                                 3
receipt and use of Federal funds. OIG, at its option, can choose to rely on audit work conducted
by internal auditors, external auditors, UWMAF’s private accounting firm, the U.S. Government
Accountability Office, or any other source OIG deems fit. The current MOU expires at the end of
fiscal year 2014, providing a window of opportunity for OSM to negotiate additional
programmatic oversight authority under any new agreement with UMWAF.

Additional Observations

        As early as 1992, OSM invested the balance of the AML fund in short-term securities and
U.S. Treasury bonds. The interest collected from the AML fund investment has been used to
finance UMWAF. Use of the interest earned on the AML fund has decreased over time,
significantly shifting the financial burden to the Treasury (see Figure 2).

         We noted that in fiscal year 2012, interest from the AML fund was used to pay $48.4
million (19 percent) into UMWAF, while the Treasury paid $205.6 million (81 percent), for a
total of $254 million. For fiscal year 2013, interest from the AML fund is expected to contribute
$54.8 million (28 percent) while Treasury is projected to provide $140.6 million (72 percent) in
funding for a total of $195.4 million.

        The projected cost derived from the interest earned on the AML fund in fiscal year 2014
will decrease significantly to approximately $14.9 million (8 percent), while the Treasury will
likely pay $180 million (92 percent), for a total cost of $195 million. Moving forward, the
availability of funding from the interest earned on the AML fund will continue to decrease
because of maturing bonds, and the Treasury will be required to take on an even larger
percentage of the funding for UMWAF. In fiscal year 2015, when all bonds have matured, the
projected contribution from the interest earned on the AML fund will be just $6 million (3
percent), while the Treasury will provide $185 million (97 percent), for a total of $191 million,
dramatically decreasing the AML fund contributions.




                                                4
                          Interest Earned on AML Fund Compared to Treasury Funding
                   $250



                   $200          205.6

                                                         180            185
                                            174.9
     In Millions




                   $150
                                                                                       AML Interest
                                                                                       Treasury
                   $100



                   $50                      55.7
                                 48.4

                                                         14.9
                    $0                                                  6
                              2012       2013         2014          2015


Figure 2: AML fund interest level compared to Treasury funding of UMWAF from fiscal years 2012 through
2015.

       Our review determined that the projected costs derived from the interest earned on the
AML fund will continue to decrease, while the Treasury’s financial obligations will continue to
increase.

Conclusion and Recommendations

        Although the funding of UMWAF falls under auspices of OSM, it has no direct
programmatic oversight ensuring the adequate and appropriate use of money transferred from the
AML fund for the intended purpose. The current MOU, however, does provide some audit
authority available to OSM.

               We recommend that OSM:

               Negotiate more specific provisions for programmatic oversight when the current MOU
               expires at the end of fiscal year 2014; or seek to adopt regulations under SMCRA
               providing for additional oversight authority.

Scope and Methodology

               We performed our work between May and July 2013. To accomplish our objective, we—

                    •     reviewed UMWAF;
                    •     reviewed the MOU between UMWAF and OSM;


                                                     5
           •   reviewed SMCRA and its amendments;
           •   reviewed relevant budgetary documentation;
           •   reviewed previous OIG and U.S. Government Accountability Office reports;
           •   reviewed OSM’s current financial costs associated with UMWAF;
           •   reviewed UMWAF’s administration role;
           •   reviewed OSM’s programmatic oversight role; and
           •   interviewed OSM personnel.

       We conducted our inspection in accordance with the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency. We
believe that the work performed provides a reasonable basis for our conclusions and
recommendations.

        Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the recommendations, as well
as target dates and title(s) of the official(s) responsible for implementation. Please address your
response to:

                       Mr. Hannibal M. Ware
                       Eastern Regional Manager for Audits, Inspections, and Evaluations
                       U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 4428
                       1849 C Street, NW.
                       Washington, DC 20240

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.

      If you have any questions regarding this report, please do not hesitate to contact me at
202-208-5745.




                                                 6
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
